                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A12060046                                                                         Page 1 of 1



                  Our office received an allegation of plagiarism in an NSF proposal. 1 Specifically, it was
          alleged that the proposal contained plagiarized text from a previously-declined proposal 2 that the
          PI (Subject) 3 had reviewed. Our review identified material that was similar to content from the
          previous proposal as well as material copied from two other sources. We contacted the Subject
          regarding the allegation.

                  The Subject said he destroyed the proposal he reviewed following the review and had not
          discussed its content with the current proposal's Co-PI. 4 He explained he used written notes to
          prepare the proposal and did not realize they included material from the reviewed proposal until
          he received our letter.

                  Regarding the other copied text, the Subject acknowledged he was responsible for
          including material from one of the sources, but said the Co-PI was responsible for including
          material from the other source. He said the two sources were referenced near the copied text and
          that he received permission to use some of the questioned text. Overall, the Subject expressed
          regret for his "inattentive actions."

                  We determined the amount of text attributed to the Co-PI was de mininis and required no
          action be taken. We further determined that the minimal amount oftext the Subject copied, the
          fact that the copied material was similar but not identical to the source material, and the inclusion
          of references near the copied text mitigated the Subject's actions. We sent the Subject a
          Questionable Practice Letter reminding him of his responsibility to adequately cite all material he
          includes in his proposal. Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (1 1/02)
